NRC: OIG/97E-04 - Considerations for Improving NRC Oversight of the Commercial Facilities Management Services Contract
Skip to Main Page Content
Skip to Search
Skip to Site Map Navigation
Skip to Footer Links
Home
FAQ
Glossary
Facility Locator
What's New
Site Help
Index A-Z
Contact Us
Browse Aloud
Email Updates
Search NRC
Report a Safety Concern
Nuclear Reactors
Power Reactors
Research & Test Reactors
Operating Reactors
Operator Licensing
New Reactors
Advanced Reactors
Operator Licensing for New Reactors
Nuclear Reactor Quick Links
Nuclear Materials
Special Nuclear Material
Source Material
Byproduct Material
Med, Ind, & Academic Uses
Source Materials Facilities
Uranium Recovery
Fuel Cycle Facilities
Materials Transportation
Nuclear Materials Quick Links
Radioactive Waste
Decommissioning of Nuclear Facilities
Low-Level Waste
Waste Incidental to Reprocessing
High-Level Waste
Uranium Mill Tailings
Low-Level Waste Disposal
High-Level Waste Disposal
Storage of Spent Nuclear Fuel
Transporation of Spent Nuclear Fuel
Radioactive Waste Quick Links
Nuclear Security
Domestic Safeguards
Information Security
Radioactive Material Security
Contact Us
Public Meetings & Involvement
The NRC Approach to Open Government
About Meetings Open to the Public
Conferences & Symposia
Documents for Comment
Facilitating Stakeholder Involvement
NRC Information Quality Guidelines
Subscribe to E-mail Updates
Commission Schedule
Public Meeting Schedule
Adjudications (Hearings)
NRC Library
Basic References
Document Collections
ADAMS Public Documents
Public Document Room
Get Copies of Documents
FOIA & Privacy Act Requests
Photos & Video
Records Management
Withholding of Sensitive Information
FAQ Index
Electronic Hearing Docket
About NRC
The Commission
Organization & Functions
Governing Legislation
Plans, Budget, & Performance
Locations
History
Values
Direction-Setting & Policymaking
Radiation Protection
Fire Protection
Safety Culture
How We Regulate
Emergency Preparedness & Response
Public Affairs
Congressional Affairs
International Programs
State & Tribal Programs
Alternative Dispute Resolution Programs
Civil Rights
Contact Us
Career Opportunities
Contracting Opportunities
Grant Opportunities
Print
Home > NRC Library  > Document Collections > Inspector General
Reports > 1997 > OIG/97E-04
OIG/97E-04 - Considerations for Improving NRC Oversight of the Commercial Facilities Management Services Contract
Contents
Overview
Report Synopsis
Introduction
Evaluation Results
Matters for Consideration
Objectives, Scope, and Methodology
Major Contributors to this Report
Glossary:  Office of the Inspector General Products
Overview
Office of the Inspector General U.S. Nuclear Regulatory Commission Washington, D.C. 20555-0001 Considerations For Improving NRC Oversight of The Commercial Facilities Management Services Contract February 25, 1997
Memorandum To:
Patricia G. Norry Deputy Executive Director for Management Services
From:
Thomas J. Barchi Assistant Inspector General for Audits
Subject:
Considerations for Improving NRC Oversight of the Commercial Facilities
Management Services Contract
Attached is the Office of Inspector General's subject report on the TECOM contract conducted at your request.  This report identifies four internal processes that are candidates for improvements in the oversight of this commercial facilities management services contract.  As NRC pursues its own internal review assessment of this contract, it should consider (1) reducing the level of inspection oversight, (2) consolidating and streamlining reporting requirements, (3) streamlining the process for issuing reimbursable work orders, and (4) eliminating performance deductions.
We briefed senior NRC managers following our evaluation so they could consider
appropriate actions on our observations. This report does not contain recommendations,
therefore, we did not solicit agency comments and will not track staff actions
to address our observations.
Report Synopsis
The U.S. Nuclear Regulatory Commission (NRC) is responsible for operating and managing all NRC Headquarters buildings.  To fulfill its responsibilities, NRC contracted with TECOM, Incorporated, a commercial facilities management services company.  The contract, which became effective on March 7, 1994, includes a base year with four option years.
We conducted this review at the request of the former Director, Office of Administration.  To respond to the request, we focused our efforts on identifying areas where contract management practices could be improved.
We believe that NRC can better manage its commercial facilities management
services contract by improving four internal processes. Our work indicates that
NRC should consider (1) reducing the level of inspection oversight, (2)
consolidating and streamlining reporting requirements, (3) streamlining the
process for issuing reimbursable work orders, and (4) eliminating performance
deductions.
Introduction
This report provides the results of a special evaluation conducted by the U.S.
Nuclear Regulatory Commission's (NRC) Office of the Inspector General (OIG).
We conducted this review at the request of the former Director, Office of Administration
(ADM). The objective of our work was to identify areas where contract management
practices could be improved.
Background
NRC is responsible for operating and managing all NRC Headquarters buildings.  To fulfill its responsibilities, NRC contracted with TECOM, Incorporated (TECOM), a commercial facilities management services company.  The contract, which became effective on March 7, 1994, includes a base year with four option years.  The contract's provisions include a firm fixed price for basic contract services, reimbursable contract services and an award fee pool.  The contract and options, if exercised, are valued at about $22.9 million.
Two ADM divisions have primary management responsibility for this contract.
The Division of Contracts (DC) negotiated and awarded the contract, makes changes
and amendments, makes final settlements on invoices, and imposes payment deductions
for unsatisfactory service. The Division of Facilities and Property Management
(DFPM) monitors contractor performance, inspects and accepts services, reviews
and approves contractor invoices and performance reports, and provides technical
direction.
Evaluation Results
In light of NRC's recently announced decision to pursue an internal review
assessment of the TECOM contract, we are providing our observations on areas
that may warrant detailed review. We believe NRC can better manage its commercial
facilities management services contract by improving four internal processes.
Our work indicates that NRC should consider (1) reducing the level of inspection
oversight, (2) consolidating and streamlining reporting requirements, (3) streamlining
the process for issuing reimbursable work orders, and (4) eliminating performance
deductions.
NRC May Be Able To Reduce Its Inspection Oversight
NRC's contract requires TECOM to establish and implement a quality control (QC) program. Because NRC lacks confidence in TECOM's QC program, the agency conducts extensive inspections to monitor contractor performance.  OIG found that five inspectors spend between 10% and 40% of their time conducting inspections, which equals about one full time equivalent(1) position.  Therefore, inspections alone cost the agency approximately $82,000 per year(2).
We believe that NRC could effectively evaluate contractor performance with
fewer inspections. Instead of daily inspections of each floor of both
White Flint buildings, inspections might be performed randomly and less frequently
(i.e., once or twice a week) thereby reducing staff effort and administrative
reporting costs. We believe a less frequent inspection schedule should provide
adequate evidence of TECOM's performance while maintaining effective contract
oversight.
NRC May Be Able To Reduce Reporting Requirements
The TECOM contract lists 67 reporting requirements. Our review of these requirements
indicates that the number of reports may be reduced and others may be consolidated
or streamlined. As this number of reports seems quite high, we believe ADM should
explore this area with an eye toward reducing duplicate and unnecessary reports.
The Process For Issuing Reimbursable Work Can Be Further Improved
Reimbursable work orders contribute significantly to the administrative effort and the number of resources used to oversee this contract.  From March 22, 1995 to February 12, 1997, NRC processed 459 reimbursable work orders totaling over $448,800, an average of almost 20 per month.  While the agency has already taken measures to streamline this process, we believe additional efficiencies should be explored.
To date, agency improvements have included using a blanket purchase agreement
and bankcards. Both improvements helped reduce staff hours to process work requests
and speeded acquisition efforts by eliminating one approval level (DC). The
blanket purchase agreement allows the project officer to authorize reimbursable
work up to $500. Bankcards can be used for purchases up to $2,500. We believe
that NRC can take further advantage of these improvements. NRC should consider
increasing (1) the project officer's level of blanket purchase authority and
(2) the use of bandkcards, further reducing NRC's administrative burden for
this process.
NRC Should Consider Eliminating Performance Deductions
NRC's contract provides for performance deductions.  This provision was included in the original contract to discourage poor performance.  It appears that the administrative costs incurred by NRC to impose these deductions (through detailed inspections and report review at several levels) may exceed the expected benefits.
While the deductions vary by month, we found that NRC's average monthly deduction was only $1,018.44 for the 20-month period from March 1995 to October 1996.  The average deduction appears to be insignificant when compared to the contractor's monthly fees of about $180,000 for basic contract services.
To alleviate the administrative costs and resources needed to decrement poor
performance, we believe NRC should consider eliminating performance deductions.
While performance deductions may have been a good idea initially, they currently
do not appear to be cost effective.
Matters for Consideration
Our work indicates that NRC's oversight of the TECOM contract may be accomplished
more efficiently and effectively. Our observations identified four internal
processes that are candidates for improvements. As NRC begins its own internal
review of the TECOM contract, NRC should consider:
Performing inspections on an infrequent, random basis.
Reducing, eliminating, and merging reports that are not needed or that
contain duplicate information.
Increasing the project officer's level of blanket purchase authority and
the use of bankcards.
Eliminating performance deductions.
Objectives, Scope, and Methodology
The objective of OIG's review was to identify areas for increased efficiency and effectiveness in NRC's oversight of its commercial facilities management services contract.
We conducted our work from November 1996 to February 1997, and interviewed
NRC staff in DC, DFPM, and TECOM staff. We also examined contract documents,
inspection reports, and other documents relating to NRC's oversight of this
contract.
Major Contributors to this Report
Anthony C. Lipuma Team Leader
Gary S. Janosko Audit Manager
Michael A. Cummins
Auditor
Glossary: Office of the Inspector General Products
Investigative
1. Investigative Report - White Cover
An Investigative Report documents pertinent facts of a case and describes available evidence relevant to allegations against individuals, including aspects of an allegation not substantiated.  Investigative reports do not recommend disciplinary action against individual employees. Investigative reports are sensitive documents and contain information subject to the Privacy Act restrictions.  Reports are given to officials and managers who have a need to know in order to properly determine whether administrative action is warranted.  The agency is expected to advise the OIG within 90 days of receiving the investigative report as to what disciplinary or other action has been taken in response to investigative report findings.
2. Event Inquiry - Green Cover
The Event Inquiry is an investigative product that documents the examination of events or agency actions that do not focus specifically on individual misconduct.  These reports identify institutional weaknesses that led to or allowed a problem to occur.  The agency is requested to advise the OIG of managerial initiatives taken in response to issues identified in these reports but tracking its recommendations is not required.
3. Management Implications Report (MIR) - Memorandum
MIRs provide a "ROOT CAUSE" analysis sufficient for managers to facilitate correction of problems and to avoid similar issues in the future.  Agency tracking of recommendations is not required.
Audit
4. Audit Report - Blue Cover
An Audit Report is the documentation of the review, recommendations, and findings resulting from an objective assessment of a program, function, or activity.  Audits follow a defined procedure that allows for agency review and comment on draft audit reports.  The audit results are also reported in the OIG's "Semiannual Report" to the Congress.  Tracking of audit report recommendations and agency response is required.
5. Special Evaluation Report - Burgundy Cover
A Special Evaluation Report documents the results of short-term, limited assessments.  It provides an initial, quick response to a question or issue, and data to determine whether an in-depth independent audit should be planned.  Agency tracking of recommendations is not required.
Regulatory
6. Regulatory Commentary - Brown Cover
Regulatory Commentary is the review of existing and proposed legislation, regulations, and policies so as to assist the agency in preventing and detecting fraud, waste, and abuse in programs and operations.  Commentaries cite the IG Act as authority for the review, state the specific law, regulation or policy examined, pertinent background information considered and identifies OIG concerns, observations, and objections.  Significant observations regarding action or inaction by the agency are reported in the OIG Semiannual Report to Congress.  Each report indicates whether a response is required.
1. This calculation is based on NRC's Budget Estimates Fiscal Year 1998.
2. Five inspectors averaging 20% inspection time.
Page Last Reviewed/Updated Thursday, March 29, 2012
Home
News Releases
Event Reports
ADAMS
Open Gov
Digital Government
Students & Teachers
Photos & Video
For Developers
About Us
Strategic Plan
Budget & Performance
Perf & Accountability Rept
History of the NRC
Career Opportunities
NRC Ethics
Agency Status
Contact Us
Popular Documents
Info Digest
Factsheets & Brochures
Forms
Electronic Submittals Application
NRC Reports – NUREG
NRC Regulations – 10-CFR
Inspection Reports
Plain Writing
Enforcement Actions
RULEMAKING
Stay Connected
Blog
Chat
Twitter
YouTube
Flickr
GovDelivery
RSS
Regulations.gov USA.gov Recovery FOIA No Fear EEO Inspector General  Site Map Accessibility Privacy Policy Site Disclaimer For Employees